MEMORANDUM
                                         I




Date:           May 4,1999

To:             File No. 1-97010006      i

From:           SA                    Investigations
                                             h



Re:




Investigation

During a forensic review of SBIR awardees, it was discovered that 0might
have been awarded a duplicate award from the Department of Energy (DOE) and the
Department of Defense @OD). The case was referred to DOE-OIG and th                e
Criminal Investigative Service @CIS). The investigation revealed that
submitted a Phase I Proposal to the DOD under the Strategic Defense I
Organization dated Jan      8, 1992, andl'submitteda Phase I Proposal to the DOE dated
January 22, 1992.            ailed to disclose the simultaneous pending proposals.

On August 17,1998                        a civil settleme t with US Attorney's Office,
Eastern District of Virgima, exandria,           PA
                                               in which -reed            to pay the USG
$50,000 to settle claims that it had defrauded the U.S. Department of Defense SBIR
program.

See the Release and Settlement ~ ~ r e e r n e &
                                               dated
                                                 , August 17, 1998, for fiuther details.
